                              Office of the Inspector General

January 31, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General

Management Advisory Report – The Social Security Administration’s Warning Banner
Implementation (A-13-98-12041)


Attached is a copy of the subject Management Advisory Report. The objectives of this
review were to determine the extent of the implementation of the Social Security
Administration's (SSA) warning banner on its local area networks and to determine
whether the banner language implemented was the same language drafted and approved
by SSA and the Office of the Counsel to the Inspector General.

You may wish to comment on any further action taken or contemplated on our
recommendations. If you choose to comment, please provide your comments within
60 days of the date of this memorandum. If you wish to discuss the final report, please call
me or have your staff contact Steven L. Schaeffer, Acting Assistant Inspector General for
Audit, at (410) 965-9700.




                                          James G. Huse, Jr.

Attachment
          OFFICE OF

   THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION




     THE SOCIAL SECURITY
      ADMINISTRATION’S
      WARNING BANNER
       IMPLEMENTATION

  January 2000   A-13-98-12041




  MANAGEMENT

ADVISORY REPORT

                                     Office of the Inspector General

January 31, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General

Management Advisory Report – The Social Security Administration’s Warning Banner
Implementation (A-13-98-12041)


OBJECTIVE

The objectives of this review were to determine the extent of the implementation of Social
Security Administration’s (SSA) warning banner on its local area networks (LAN) and to
determine whether the banner language implemented was the same language drafted and
approved by SSA and the Office of the Counsel to the Inspector General (OCIG).

BACKGROUND

As a user accesses (logs on) an SSA LAN, SSA’s warning banner is accessed first and
processing stops. The user must press the banner “OK” button to enter the SSA LAN
logon screen.1 This action is an acknowledgement of the banner and its contents.

The warning banner drafted and approved by SSA and OCIG is as follows.

          This is a U.S. Government computer system subject to Federal law. The
          Social Security Administration is an agency of the U.S. Federal Government.
          SSA’s network and all nodes attached are provided as a service to its
          employees and authorized contractors. There is no expectation of user
          privacy in the system including, but not limited to, electronic mail messages.
          Unauthorized attempts to access, upload, or otherwise alter data,
          programming language, or any other part of SSA’s systems are strictly
          prohibited and are subject to disciplinary and/or civil action or criminal
          prosecution.           Anyone       using       this     system       expressly



1
    The screen where users enter their identification and password to gain entry into SSA’s LAN.
Page 2 – William A. Halter

         consents to monitoring and is advised that if such monitoring reveals
         possible evidence of criminal activity, SSA may provide the evidence of such
         monitoring to law enforcement officials.

SSA’s warning banner is a security tool that deters fraud and abuse of SSA’s systems
because it informs an employee or hacker that unauthorized access to an SSA system can
be subject to disciplinary or civil action or criminal prosecution. The banner also serves as
a law enforcement tool because it makes it clear to employees that unauthorized use of
SSA computers is prohibited.

The banner does not address every computer security-related issue. Instead, it works with
other SSA policies, procedures, and security measures, including those concerning the
use of Government property and privacy in the workplace. For example, the SSA warning
banner does not state that its computers are to be used for official SSA activities.
Conversely, chapter 14, Microcomputer Security, of the SSA Systems Security Handbook
emphasizes the official use of SSA computers in bold print.

We performed this review at the Office of the Inspector General’s (OIG) Office of
Investigations’ (OI) request after it identified a desktop computer that did not show SSA’s
warning banner when the user accessed an SSA LAN. SSA’s warning banner facilitates
search and seizure efforts by informing employees that there is no expectation of user
privacy in SSA systems. The warning banner makes clear to all parties the rules governing
the use of SSA’s automated information systems.

After discussing the OI request with OCIG, we determined that this review should also
follow up on the OCIG’s June 23, 1997, OIG Regulatory Commentary, Social Security
Administration Computer Warning Banner. The Commentary concluded that SSA should
institute a computer warning banner that will serve as both a deterrent against unauthorized
computer intrusions and a weapon in the Agency’s efforts to combat employee fraud. In a
July 30, 1997, memorandum, the Commissioner of SSA agreed that SSA should have an
Agency-wide computer warning banner on each internal computer. The Commissioner
stated that the warning banner would be added to the individual computers as they are
transferred to the SSA Windows New Technology (NT) environment2 within the next 12
months (July 30, 1998).

SSA and OCIG drafted and approved the warning banner language. Once the language
was approved, the Office of Telecommunications and Systems Operations (OTSO) began
implementing SSA’s warning banner as the individual computers were transferred to the
SSA Windows NT environment. In September 1998, OTSO informed us that the transfer of
all computers and LANs to an SSA Windows NT environment was ongoing and was
planned for completion by September 30, 1999. SSA estimated that 2,825 LANs with

2
    The SSA Windows NT environment is a LAN maintained and controlled by OTSO.
Page 3 – William A. Halter

59,095 computers were operating on the SSA Windows NT environment, and at least 300
LANs needed to be transferred. In September 1999, SSA informed us that it needed to
transfer 4,164 (5 percent) of its 77,430 devices3 to the Windows NT environment.

SCOPE AND METHODOLOGY

We limited the scope of this review to the warning banner used with Agency LANs. We
visited 19 offices and observed whether the warning banner and acknowledgement were
displayed as users accessed SSA LANs. Those offices included the Office of Hearings
and Appeals (OHA) and offices located at SSA Headquarters and its regions. We
interviewed personnel within the Office of General Counsel, Office of Financial Policy and
Operations (OFPO), Division of Systems Security (DSS), and the Office of Systems to
ascertain the number and types of SSA LANs and to verify whether the warning banner
implemented was the banner approved by SSA and OCIG. We performed this review from
July through November 1998. In September 1999, we obtained the status of the banner
implementation.

RESULTS OF REVIEW

SSA made significant accomplishments with the implementation of its warning banner,
which is displayed on the estimated 59,095 computers accessing 2,825 LANs. However,
SSA did not complete the transfer of individual computers to the SSA Windows NT
environment by July 30, 1998, as planned. SSA extended this date to September 30,
1999. As a result, implementation of SSA’s warning banner is incomplete for those
computers connected to the remaining 300 LANs to be transferred. Also, the warning
banner language was not the approved language.

Implementation of the Banner Needs to Be Completed

SSA believed most of the 300 LANs lacking banners were located at SSA Headquarters
and few remain in SSA’s regions. SSA could not provide documentation to support the
accuracy of the 300-LAN estimate or to show how many computers were connected to
those LANs. SSA also could not provide an implementation plan showing the resource
allocation and timing for the transfer of the 300 LANs to the SSA Windows NT environment
by September 30, 1999, a planned project delay from the July 30, 1998, completion. At the
time of our review, we believed the warning banner may not be fully implemented on all
SSA LANs by the end of FY 1999 because the 300-LAN estimate may not be accurate,
and there is a lack of planning documentation for the implementation of those LANs.

We judgmentally selected 19 offices throughout SSA to determine whether the warning
banner and acknowledgement were displayed as users accessed SSA LANs. We

3
    SSA defines devices as a mix of network components such as printers, computers, and LAN servers.
Page 4 – William A. Halter

confirmed that computers connected to the SSA Windows NT environment displayed the
banner and its acknowledgement, and those computers not connected to the Windows NT
environment did not display the banner and its acknowledgement. Specifically, we found
that the banner and its acknowledgement were displayed on 10 computers connected to
the SSA Windows NT environment. Likewise, we found that nine computers not connected
to the SSA Windows NT environment did not display the banner and its acknowledgement
and those computers access sensitive information such as disability information
maintained by OHA. One significant Headquarters office that did not display the banner on
its computer was the OFPO, DSS. Appendix A lists the offices and their components
whose computers did not display the banner and its acknowledgement.

Planned project delays and potential unplanned delays resulted in the warning banner not
being implemented timely. As a result, SSA did not take necessary steps to reduce fraud
and abuse. We believe the warning banner implementation should no longer be
associated with the transfer of individual computers to the SSA Windows NT environment.
Rather, the warning banner should be implemented on all SSA LANs, regardless of the
scheduled transfer to the SSA Windows NT environment.

In September 1999, SSA informed us that 73,266 of its 77,430 devices were transferred to
the SSA Windows NT environment. SSA could not provide the number of computers and
LANs included in the 77,430 devices. Because the transfer to the Windows NT
environment is ongoing, implementation of SSA’s warning banner is incomplete for the
number of computers and LANs within the 4,164 (77,430 less 73,266) remaining devices.

Only the Approved Warning Banner Language Should Be Used

The warning banner displayed on 59,095 computers accessing the SSA Windows NT
environment did not agree with the banner drafted and approved by SSA and OCIG. The
Department of Justice (DoJ) Computer Crime Unit also reviewed and approved the
SSA/OCIG approved warning banner. The DoJ approval was critical to ensuring the
banner was acceptable for law enforcement purposes. After the approvals, SSA altered
the banner language, but it could not explain when or why the language was altered.

Text from the implemented warning banner was either omitted or changed. For example,
SSA omitted the word “access” as a type of activity that is prohibited. The word “access”
should be included in the banner because SSA LANs can be accessed and sensitive
information can be viewed without alteration. Also, the addition of the word “access” on the
banner is needed for employee investigations because it makes it clear to employees that
unauthorized use of SSA computers is prohibited. As a result of such omissions, we
believe SSA’s warning banner is less effective as a tool to deter fraud and abuse of SSA
systems. Also, the prosecution for unauthorized access could be impeded because an
employee can now deny knowledge of wrongdoing. Appendix B shows the warning banner
Page 5 – William A. Halter

language used by SSA, and the SSA/OCIG approved banner language with the omitted or
changed language in bold print.

In the July 30, 1997, response to the OIG Commentary, the Commissioner of SSA stated
that the warning banner would be added to the individual computers within the next
12 months. DSS staff did not confirm that the Office of Systems implemented the
SSA/OCIG approved warning banner by July 30, 1998. The Systems Security Handbook
states that the SSA Systems Security Officer has overall responsibility for security policy,
procedures, and standards for SSA LANs and individual computers. It also states, “The
SSA Systems Security Officer is responsible for monitoring system security to ensure
Agency compliance with established policy.”

CONCLUSION AND RECOMMENDATIONS

SSA implemented the warning banner as it transferred individual computers to the SSA
Windows NT environment. However, that banner was not the SSA/OCIG approved banner.
Also, because LANs within the 4,164 devices need to be transferred to the SSA Windows
NT environment, the warning banner implementation is incomplete. The DSS should have
ensured that the SSA/OCIG approved warning banner was fully implemented.

We recommend that SSA:

1.	 Direct DSS to follow SSA’s security policy and monitor the implementation of the
    approved warning banner to ensure its completion in a timely manner;

2.	 Direct DSS to follow SSA’s security policy and monitor the continued Agency-wide use
    of the warning banner as a security objective; and

3.	 Implement the SSA/OCIG approved warning banner by the end of Calendar Year 1999
    on all SSA LANs to deter fraud and abuse of computers accessing SSA LANs and
    assist with any investigations involving those computers.
Page 6 – William A. Halter

AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with our recommendations. It stated that the Office of Systems Security
(formerly Division of Systems Security) is monitoring the implementation of the approved
banner to be completed with the transfer of devices to the SSA Windows NT environment
by the end of spring 2000. SSA LANs have been updated with the approved language.
We believe that SSA’s proactive actions in response to this report demonstrate its
commitment to an aggressive systems security program.




                                                James G. Huse, Jr.
APPENDICES

                                                                          APPENDIX A

      Social Security Administration Offices
       Not Observing and Acknowledging
                Warning Banner

Computers in nine offices from eight Social Security Administration (SSA) components did
not display SSA’s warning banner and its acknowledgement. Eight of the offices were
located at SSA Headquarters. SSA is taking an unnecessary risk of fraud and abuse for
those computers and any others not displaying a warning banner with an
acknowledgement.

      Deputy                                                                   SSA
   Commissioner                              Office                          Location
 Communications           Office of Public Inquiries, Policy Procedures    Headquarters
                          and Operations Support Group

 Disability and Income    Office of Hearings and Appeals                   Falls Church
 Security Programs                                                         Office

 Finance, Assessment      Office of Financial Policy and Operations,       Headquarters
 and Management           Division of Systems Security
                          Office of Quality Assurance and Performance
                          Assessment, Division of Data Management

 Human Resources          Office of Labor Management and Employee          Headquarters
                          Relations, Policy Integration Team

 Legislation and          Supplemental Security Income Program Staff       Headquarters
 Congressional Affairs

 Operations               Office of Telephone Services, Service Team       Headquarters

 Policy                   Office of Research, Evaluation and Statistics    Headquarters

 Systems                  Office of Systems Design and Development,        Headquarters
                          Division of Data Systems
                                                                             APPENDIX B


                            Banner Language


The banner language used by the Social Security Administration (SSA) and the banner
approved by SSA and the Office of the Counsel to the Inspector General (OCIG) are shown
below. The omitted or changed text is shown in bold print on the SSA/OCIG approved
banner.

Banner Being Used by SSA

The Social Security Administration is an agency of the U.S. Federal Government. SSA’s
network and all nodes attached are provided as a service to the employees and authorized
contractors. There is no expectation of user privacy in this system including, but not limited
to, electronic messages. Unauthorized attempts to upload or otherwise alter data,
programming language, or any other part of SSA’s system are strictly prohibited and are
subject to disciplinary and/or civil action or criminal prosecution. Anyone using this system
expressly consents to monitoring and is advised that if such monitoring reveals possible
evidence of criminal activity, SSA may provide that evidence to law enforcement officials.

Banner Approved by SSA and the OCIG

This is a U.S. Government computer system subject to Federal law. The
Social Security Administration is an agency of the U.S. Federal Government.
SSA’s network and all nodes attached are provided as a service to its employees
and authorized contractors. There is no expectation of user privacy in the system
including, but not limited to, electronic mail messages. Unauthorized attempts to
access, upload, or otherwise alter data, programming language, or any other part
of SSA’s systems are strictly prohibited and are subject to disciplinary and/or civil
action or criminal prosecution. Anyone using this system expressly consents to
monitoring and is advised that if such monitoring reveals possible evidence of
criminal activity, SSA may provide the evidence of such monitoring to law
enforcement officials.
                   APPENDIX C


AGENCY COMMENTS

COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT
MANAGEMENT ADVISORY REPORT, “THE SOCIAL SECURITY
ADMINISTRATION’S WARNING BANNER IMPLEMENTATION”
(A-13-98-12041)


Thank you for the opportunity to review this draft report. We
agree that use of an effective warning banner of the kind
highlighted in this OIG report is an important component of
our aggressive systems security program.


OIG Recommendations

Direct the Division of Systems Security (DSS) to follow the
Social Security Administration’s (SSA) security policy and
monitor the implementation of the approved warning banner to
ensure its completion in a timely manner.

Direct DSS to follow SSA’s security policy and monitor the
continued Agency-wide use of the warning banner as a security
objective.


Comment

We agree. The Office of Systems Security (formerly named DSS)
is monitoring the implementation of the approved banner now
underway (see comment on following recommendation) and will
continue to do so to help ensure the security of SSA data.


OIG Recommendation

Implement the SSA/Office of the Counsel to the Inspector
General approved warning banner by the end of Calendar Year
1999 on all SSA local area networks (LAN) to deter fraud and
abuse of computers accessing SSA LANs and assist with any
investigations involving those computers.


Comment

We agree in the importance of timely implementation of the
approved warning banner, and actions have been taken and are
underway in this regard. The banners on all SSA LAN domain
member servers have already been updated. As the



                              C-2
                                                             2



remaining legacy LANs and workstations are replaced with
devices that conform to the present SSA LAN infrastructure,
the users will receive the approved warning banner. We expect
these remaining devices to be replaced by the end of Spring
2000. Should access concerns arise concerning those computers
in the future, we agree to assist in investigations as needed.




                              C-3
                                                                     APPENDIX D


       MAJOR REPORT CONTRIBUTORS


Office of the Inspector General

Gale Stone, Director, Systems Audits

Albert Darago, Audit Manager, Applications Controls

Wesley Lewis, Auditor

Kimberly Beauchamp, Writer-Editor, Technical Services



For additional copies of this report, please contact Office of the Inspector General’s

Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number A-

13-98-12041.

                       APPENDIX E


SSA ORGANIZATIONAL CHART

